           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

        SINGLE AUDIT OF THE
         STATE OF ARIZONA
        FOR THE FISCAL YEAR
         ENDED JUNE 30, 2009

    December 2010    A-77-11-00007




 MANAGEMENT
ADVISORY REPORT
                                               Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d
in ve s tig a tio n s , we ins p ire p u b lic c o n fid e nc e in th e in te g rity a n d s e c u rity o f
S S A’s p ro g ra m s a n d o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d
a b u s e . We p ro vid e tim e ly, u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to
Ad m in is tra tio n o ffic ia ls , Co n g re s s a n d th e p u b lic .

                                              Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive
u n its , c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). The m is s ion o f th e OIG,
a s s p e lle d o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d
     p ro p o s e d le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s
     a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d
     o f p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e
     re vie ws .

                                                Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d ,
wa s te a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n
e n viro n m e n t th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e n c ou ra g in g
e m p lo ye e d e ve lo p m e n t a n d re te n tio n a n d fo s te rin g d ive rs ity a n d
in n o va tio n .
                                       SOCIAL SECURITY
MEMORANDUM

Date:      December 20, 2010                                              Refer To:

To:        Rebecca Tothero
           Acting Director
           Audit Management and Liaison Staff

From:      Inspector General

Subject:   Management Advisory Report: Single Audit of the State of Arizona for the Fiscal Year
           Ended June 30, 2009 (A-77-11-00007)


           This report presents the Social Security Administration’s (SSA) portion of the single
           audit of the State of Arizona for the Fiscal Year ended June 30, 2009. Our objective
           was to report internal control weaknesses, noncompliance issues, and unallowable
           costs identified in the single audit to SSA for resolution action.

           The Arizona Auditor General performed the audit. The desk review conducted by the
           Department of Health and Human Services (HHS) concluded that the audit met Federal
           requirements. In reporting the results of the single audit, we relied entirely on the
           internal control and compliance work performed by the Arizona Auditor General and the
           reviews performed by HHS. We conducted our review in accordance with the Council
           of the Inspectors General on Integrity and Efficiency’s Quality Standards for Inspections.

           For single audit purposes, the Office of Management and Budget assigns Federal
           programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
           Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
           CFDA number 96. SSA is responsible for resolving single audit findings reported under
           this CFDA number.

           The Arizona Disability Determination Services (DDS) performs disability determinations
           under SSA’s DI and SSI programs in accordance with Federal regulations. The DDS is
           reimbursed for 100 percent of allowable costs. The Department of Economic Security
           (DES) is the DDS’ parent agency.

           The single audit reported that the DES inappropriately allocated a capital expenditure of
           $8,820 to various Federal programs as an indirect cost (Attachment A, Pages 1 and 2).
           The corrective action plan indicated the capital expenditure was removed from the
           indirect costs allocation and additional policies and procedures were implemented to
Page 2 – Rebecca Tothero
ensure capital equipment is not charged as indirect costs (Attachment A, Pages 2). We
recommend that SSA verify that the portion of the $8,820 allocated to the DDS was
returned.

The single audit also reported that the Arizona DDS did not have adequate internal
control policies and procedures in place to ensure the Time Report of Personnel
Services for DDS (Form SSA-4514) and the State Agency Report of Obligations for
SSA Disability Programs (Form SSA-4513) were accurate (Attachment A, Pages 3
and 4). We made a recommendation to SSA in a prior report for corrective action on
this finding. 1 We confirmed that SSA had taken appropriate corrective actions to
address this finding. Therefore, we will not repeat the recommendation in this report.

In addition, the single audit disclosed the following findings that may impact DDS
operations although they were not specifically identified to SSA. We are bringing these
matters to your attention as they represent potentially serious service delivery and
financial control problems for the Agency. Specifically, the State of Arizona

•   did not submit the single audit report to the Federal Audit clearinghouse timely
    (Attachment B, Page 1), and

•   charged unallowable costs to Federal programs for general agency counsel services
    provided by the Office of the Attorney General (Attachment B, Pages 2 through 4).

Please send copies of the final Audit Clearance Document to Shannon Agee. If you
have questions, contact Shannon Agee at (816) 221-0315, extension 1537.




                                                      Patrick P. O’Carroll, Jr.

Attachments




1
 SSA OIG, Management Advisory Report, Single Audit of the State of Arizona for the Fiscal Year Ended
June 30, 2008 (A-77-10-00007), May 2010.
                                                                                      Attachment A
                                                                                        Page 1 of 4
09-120
SNAP au-:
CFDA No.: 10.551 SUppiemenIBI ~Aosistance Progrsm. # 7PZ4OOI>Z4
           10.561 State Admin_ Matching Grw1ts for the SUppiemenIBI _tioo As8istance
           Program. # 7PZ4OO1>Z4
           10.561 ARRA---StaIe Adninistrallw Matching Grants for the SUppiemenIBI ~ As8istance
           Program. # 7PZ4OOI>Z4
U.S. DeparIment 01 AgricUIlR
Award Period: October 1, 2007 Through September 30, 2008
              October 1, 2008 through September 30, 2009

CFDANo.: 17.225 UnerT'!JIOyment Insurance. #s UI-15101l-06-55. U~15785-{)7-55. U~16733-C1l-55. and
          U~18007-<1&-55
           17.225 ARRA-Unemployment I........... # UH8007-Q1l-55
U.S. DeparIment 01 Laber
 ward Period: October 1, 2005 Through September 30, 2008
               October 1, 2006 through September 30, 2009
               October 1, 2007 through September 30, 2010
               October 1, 2008 through Sepiember 30, 2011

Vocational Rehabilitation Cluster:
 CFDA No.: 84. 126 Rehabilitation SeNioeo-VocatIonaI Rehabilitation Grw1ts 10 States. #8 H126A1l70002.
             H1         . and
.U.s : DeparIment 01
Award Period: October 1, 2006 through September 30, 2008
              October 1,2007 through September 30, 2009
              October 1. 2008 through September 30, 2010

TANF Ouster:
CFDA No.: 93.558 Temponuy Asaiotanca for Needy Families. #8 GOflO2AZTANF and GOflO2AZTANF
CCOF CkJsIer:
CFDA No.: 93.575 ChDd Cole and IlIMoIopment Bleck Grant, #8 G0e01AZCCDF and G0e01PZCCDF
          93.596 Child Cole Mandalay and Matching Funds 0I1he Child Cole and IlIMoIopment Fund,
          #S GOe01PZCCOF and G0e01PZcaDF
          93.713 ARRA--Chlid     care
                                   and IlIMoIopment Bleck Grant, # G0e01AZCCD7
U.S. 0ep0r1ment 01 HeaIIh and H....." SeNIces
 ward Period: October 1, 2007 through September 30, 2008
              October 1. 2008 through September 30, 2009
              October 1,2008 through September 30, 2010

Disability InsuIWlCO/SSl Ouster:
CFDA No.: 96.001 Social SecuIIy-OItablIly Insurance. #8 D40804AZD100 and D40804AZD100
Social Security AanlnlBlndlon
Award Period: October 1,2007 through SepTember 30, 2008
               October I , 2008 through September 30, 2009
Allowable CoStS/CoST Principles
                                                                             Ques·ioned COSl: $8.82<
                                                                                              Attachment A
                                                                                                Page 2 of 4
Criteria: In accordance with 2 CFR §225, Appendix B, 15.b.(5), equipment and other capital expenditures
are unallowable as indirect costs; however, they are allowable only through depreciation or use
allowances.

Condition and context : The Depanment of Economic SecurilY allocated a capital expenditure to federal
programs. Specifically, auditors nOied that for 1 of 55 expendilUres tested, the Depanment charged
$8,820 for a vehicle to its modified direct total cost pool that was subsequently allocated to various federal
programs .

Effect: Allocating capital expenditures to indirect cost pools can result in unallowable costs, duplication of
costs if depreciation is also charged , and noncompliance with cost princi ples. It was not practical to
extend our auditing procedures sufficiently to determine the amounts of questioned costs for each
program affected or whether any additional questioned costs resulted from this fi nding. This finding results
in noncompliance with allowable costs/cost principles requirements for the programs listed above.


Cause : The Department inadvertently charged a capital equipment item to a      COST allocation   pool that was
subsequently allocated to federal programs.

Recommendation: The Depanment should ensu re that the purchase costs of capital equipment items
are no! allocated to federal programs when purchased, bUT rather allocated through depreciation expense
or use allowances over their useful lives.


Agency Response : Concur
Agency Corrective Action Plan : The Department of Economic Security is implementing additional policies
and procedures that ensure capital equipment is not charged to indirect cost pools. Non-Leased Capital
equipment purchases where the benefi ting federal program(s) cannot be readily identified will be paid for
with non-federal funds and allocated through depreciation over the useful life of the asset TO the benefiting
federal programs.

The Financial Services Administration (FSA) completed an expenditure correction that removed the charge
of the identified vehicle from the indirecl cost pool.
                                                                                             Attachment A
                                                                                               Page 3 of 4


09-119
~ 1nourancoISSI~:
CFDA No. : 96.001 SocIal Seao1ty--OIaaIl         nuance. #'sll4OlllMAZlll00 and Il4OIIIMAZIll00
SocIal SeCIrty AItnIr .... aI1on
Award Period: October 1, 2007 through September 30, 2008
              October 1, 2008 Through SepTember 30, 2009
 eporting
                                                                                       Questioned Cost:   NJ

Criteria: The Social Security Administration's (SSA) Program Operations Manual System policy
insiructions, §§DI 39506.23 1 and 01 39506.210 should be followed iO repan the hours worked by staffing
category and employment staTUS, such as full-time, pari-Time, or temporary, accuraiely on the quarterly
nme Repon of Personnel Service for Disability Determination Services (SSA-451 4) repons and to report
cumulative obligations by line iTem for the fiscal year accurately on the quarterly State Agency Report of
Obligations for SSA Disability Programs (SSA-4513) repans,

Condition and context: The Department of Economic Security, Disability Determination Services
Administration, did not have adequaTe internal conTrol policies and procedures to ensure its SSA-4514
reports were accurately prepared. Specifically , auditors noted the activity hou rs reported on the March 31 ,
2009, SSA-4514 repan did not agree to the time sheets for 7 of 20 employees tested. These errors
resulied in an overstatement of 48.5 supporting hours worked and an understatement of 5.5 leave hours
taken. This also resuhed in an overstatement of 54.3 total hours worked and total duty hours reported on
the report's accompanying supporting schedule. In addiiion, the AdminiSiration did not property calculate
the amount of SSA leave hours taken since it used an incorrect percentage to apply the non-SSA leave
hours in the supporting schedules which resulted in an underSiatement of 49.9 SSA leave hours on the
SSA-4514 report . Further, while performing tests over program expendiiures, audiiors noTed 2 consultative
examination expenditures were not accurately recorded in the accounting system, resulting in an
understatement o f $ 124 for concurrent supplemental security income/disability insurance claims and an
overstatement of $124 for supplemental security income daims on the March 31 , 2009, SSA-4513 report ,
and an understatement of $124 of supplemental security income claims and an overstatement of $124 of
disability insurance claims on the June 30, 2009, SSA-45 13 repan.
Effect: This finding did not result in a questioned cost since the reports were not used to request
reimbursement o f federal expenditu res. This finding is a significant deficiency in internal control over
compliance and noncompliance with the program 's reponing compliance requirements.

Cause : The Administration did not adequ8lely review or reconcile its federal reports to supponing
records, In addition, the Administration did not adequately review the expendilUre transactions to ensure
that they were recorded properly on its general ledger system used to prepare the SSA-4513 report.

Recommendation: The Administration should establish a review process to help ensure federal repons
are accurate befo re they are submitted to the Social Secu rity Administration . This review should ind ude:

•   ReconCiling its federal reports to supporting records and schedules.

•   Ensuring repon information is accurately accumulated and classified .

Further, the Administration should require supervisors to review expenditu re transactions to help ensure
that they are properly classified in its general ledger system.

This fi nding was similar to a prior-year finding.
                                                                                            Attachment A
                                                                                              Page 4 of 4
Agency Respon se: Concur

Agency Corrective Action Plan: To help ensure the Disability Deiermination Services Admini stration
(DDSA) captures accurate data for the SSA-4514 repons, DDSA now delays the timesheei data download
from the Financial Management and Control System (FMCS) dala warehouse for three weeks from the
date of timesheet data entry. This delay allows for input of amended timesheet data. Also, an additional
field is downloaded and used to calculate hours. This calculation acts like a control field and should agree
with leave hours and worked hours for each record . As of January 10, 2010, DDSA reconciles entries for
each record with limesheeis and reviews any special entries for each pay period .

To ensure OOSA uses the correct percentage to calculate the SSA leave hou rs in the SSA-4514 repon,
DDSA changed procedures to require verification of the percentage as the first step in the process. In
addition, ODSA added fi ags to the spreadsheet 10 alert the user to verify the percentage is correct. DDSA
corrected the error for the quaner and contacted the Social Security Administration (SSA) regional office to
establ ish that a revised SSA-4514 repon was nO! necessary since the impact of the error was insignificant.

To ensure DDSA fiscal staff members accurately record expenditures in the accounting system, ODSA
provided additional traini ng to fiscal staff members regard ing data validation and review. Staff members
were also given a reference list of the case type codes to use when separating authorizations by case
type. In addition, supervisors will randomly review transactions in the future.
                                                                                           Attachment B
                                                                                             Page 1 of 4
09-101
CFDA No.: Not applicable
                                                                                    Questioned Cost N/A

Criteria : Office of Management and Budget (OMS) Circular A-133, Audits of States, Local Governments,
and Non-Profit Organizations, §.320, requires 1he Stale to submit its Single Audit Reponing Package to the
federal clearingr.ouse no later than 9 months after fiscal year-end, unless The State'S federal oversight
agency approves an exrension of this deadline.

Condition and context : The federal reponing deadline for the Slale's Single Audit Reponing Package
was March 31 , 2010; however, the State did not issue its Single Audit Reponing Package until June 2010.
In addition, the State's federal oversight agency, the U.S. Department of Health and Human Services, has
not approved an extension for late submission of the 2009 Single Audit Reponing Package.

Effect: The late submission affects all federal programs the State administered. This finding is a material
weakness in internal control over compliance and noncompliance with OMB Circular A-l33, Audits of
States. Local Governments, and Non-Profit Organizations, §.320. However, this finding does not result in a
control deficiency in internal cont rol over compliance or noncompliance for the individual federal
programs , as this was not caused by the programs' administration.

Cause : As discussed in finding 09-01, the laie compleiion of the State's CAFR contributed to the late
submission of iiS Single Audit Reponing Package.

Recommendation : The State should improve iis financial reporting process so that it can submit its
Single Audit Repooing Package to the federal clearinghouse no later than 9 months after fiscal year-end.
                                                                                     Attachment B
                                                                                       Page 2 of 4
09-102
SNAP Cluster:
CFDA No.: 10.551 SUpplemental Nutrition AssIsIsnce Program, #7AZ4OOAZ4
             10.561 SUIte AdministratlYe Matching Grants for the ~ Nutrition Assistance
             Program, #7AZ4OOAZ4
             10.561 _ t e AdministratlYe Matching Grants for the SUpplemental Nutrition Assistance
             Program, #7AZ4OOAZ4
Clild Nutrition Cluster:
CFDA No.: 10.553 School Breal<fast Progam, #7~
             10555 National SchooIllJnch Progam, #7~
             10.556 SpecIal Milk Program for Children, #7~
             10559 SUmmer Feed Setvice Prcgram for Children, #7~
CFDA No.: 10.558 Child and Ad.. Care Feed Program, #7~
U.S. Department 01 AgriWt....
Award Period: October 1, 2007 through September 30, 2008
                October 1, 2008 through September 30, 2009
CFDA No. : 12.401 NatIonal Guard Miliary Operations and Maintenance (O&M) Pro)eclB, Various
U.S. Department 01 DeI8noe
 ward Period: October 1,2007 through September 30, 2012

~ SeMceo Cluster:
CFDA No. : 17 .207 EmpIo)ment SeMoo.Wagner~ Funded ActIvItIes, #s E-9-5-&-5064 and E-9-5-9-
           5084
           17.801 DIsabled Veterans' Outreach Program (DVOP), #s E-9-5-&-5064 and E-9-5-9-5084
           17.804 lccaI Veterans' Employment RapnIsentatIYa Progam, #s E-9-5-&-5064 and E-9-5-9-
           5084
WIA Cluster:
CFDA No.: 17.258 WIA AOJ~ Prcgram. #s AA-15466-06-55. M-16015-{)7-55-A-4, M-17107-(18·55. and
          AA-18268-09-55
           17.258 ARRA-WIA Adu~ Program, #AA-1S268W-55
           17.259 WIA Youth ActIvIties, #s AA-15486-08-55, AA-16015-{)7-55-A-4, AA-t7107-0&-55, and
          AA-18268-09-55
           17.259 ARRA-WIA youth ActIvItIes, #AA-18268-09-55
           17.260 WIA DIslocated WorI!snI, #s AA-15486-08-55. AA-16015-{)7-55-A-<I. AA-17107-0&-55.
           and AA-18268-09-55
           17.260 ARRA-WIADIsIocatadWorl!snl. #AA-t8268-09-55
U.S. Department 01 Labor
 ward Period: April 1, 2006 through June 30, 2009
               April 1,2007 through June 30, 2010
               October 1, 20071lirough September 30, 2008
               April 1, 2008 through June 30, 2011
               October 1,2008 through September 30, 2009
               April 1. 2009 tllrough June 30, 2012

 Ig~ Planning and ConatI\Iction Cluster:
CFDA No. : 20.205 HIglwayPlamIng and Construction. Various
           20.219 RecraaIIonaJ Trails Progam. Various
U.S. Department 01 Transportation
 ward Period: October 1, 20071llrough September 30, 2008
                  lobe         Ihroug SeQ.,
                                         te"m"'be
                                               ,,'c,3"'O,'-"I=_ _ _ _ _ _ _ _ _ _ _ _ _-'
                                                                                    Attachment B
                                                                                      Page 3 of 4
 itIe I. Part A Cluster:
CFDA No. : 84.010 l1tle I Grants to Local Ecb:at1on8l Agencies. # s SOHIADIlOOO3. SOl0A070003. and
              SOl0A080003
              84.389 Trtle I Grants to Local Educational Agencies. Recovery Act. #S389A090003
Special Educalion CkJste< ODEA):
CFDA No.: 84.027 Special Educa!lor>--Grant to Stales. #s H027A01lOOO7. H027A070007. and
              H027A080007
              84.173 Special EdUC8!lorr-l'reschool Grants. # s H173A01lOOO3, H173A070003. and
              Hl73A080003
VocaUonal Rehabilitation Cluster:
CFDA No.: 84126 ReIlabIItation SeNlce&-VocationaI Rehabilitation Grants to Stales. # s H126A070002.
              Hl26A080002. and Hl26A080002
Early 1 _Services ODEA) Cluster:
CFDA No.: 84.181 Special ~rants for Infanta and Families. # s H181AD1lOOO1
              H181A080002
              84.393 Special EducaIion-GranI for Infanta and Families, Recovery Act. #s H181AD1lOOO1
              and H181A080002
CFDA No : 84.367 Improving TB8Cher Quality Slat. Grants, # s S367AD1l1lO49. S387B06OOO3,
              S367A070049. S387B070003. S367AD1l1lO49, and S387B06OOO3
U.S. Dapastmant 01 EWcaIIon
 ward Period: July 1, 2006 through September 30, 2007
              October 1,2006 through September 30, 2008
              July " 2007 through September 30, 2008
              October 1 , 2007 through September 30, 2009
              November 6, 2007 through September 30, 2008
              July " 2008 through September 30, 2009
              October 1,2008 th rough September 30,2010

 ANFOuster:
CFDA No.: 93.558 TamponuyAsslstancefor Needy Families. # s ClO802AZTANF and G0902AZTANF
CCDFau-:
CFDA No.: 93 .575 Child Cera ard DawIopmanI Block Grant. # s G0801AZacDF and G0801AZCCDF
          93.596 Child Cera Mandalay ard Matching Funds 01 the Child Cera and DawIopmanI Fund.
          # s G0801AZCCDF and G0801AZacDF
          93.713 ARRA-Child Cera and DawIopmanI Block Grant. # s G0901AZCCDF
MedIcaid CkJste<:
CFDA No. : 93.775 S - Medicaid Fraud Control Units
           93.777 S - Survayard CartifICIItIon of Health c.... ProvIdarsard Supplieni
           93.778 Medical AsaisIanca Program
           93.778 ARM Medical AssIstance Program
CFDA No.: 93658 Foster C8re-Trtie IV-E. # s 0701AZl401 . DIlO1AZl401. andDl101AZl401
CFDA No.: 93.658 ARM Foster C8re-T1tIe IV-E. #0901AZl402
CFDA No. : 93 .767 Children's Health Inau..... Program
CFDA No.: 93.959 Block Grants for Prevention and TrealJll801t 01 SI.t>otanoa Abuaa. #s B1AZSAPHI7-5
           and 3B01lTl()()()4.0851
U.S. Dapastmant 01 HasIth and H,..,." Services
Award Period: October 1, 2006 tnrough September 30, 2007
              October 1, 2006 th rough September 30, 2008
              October 1 , 2007 through September 30, 2008
              October 1. 2007 through September 30, 2009
              October 1,2008 tllrougll September 30, 2009
                tob r 1 2008 throug eQ"'te" m"'be"'rL.,;>;;!.c2=tgO_ _ _ _ _ _ _ _ _ _ _ _ _.....
                                                                                           Attachment B
                                                                                             Page 4 of 4
           Securtty Cluster:
CFDA No.: 97.067 Homeland Securtty Grant Program, #8 2!J06.GE-T6-IOO7, 2007-sG-N6-0004, 2007-GE
          17-0006, 2007-sG-N6-0007, 2!J06.GE-T8-0021, and 2008-SG-T8-«107
~.S. Deportment 01 Homeland Securtty
Award Period: November 1, 2006 through October 31, 2008
              November 1, 2006 through September 30, 2008
                July 1, 2007 through June 30, 2010
                September 1, 2008 through August 31, 2011
fJlawable CoSts/Cos; Principles
                                                                               no          c
Criteria: In accordance wiih OMB Circular A-87, Cost Principles for State, Local. and fndian Triba!
Govemments, Anachment A, paragraphs G.l.b and 3.8. , costs charged to federal programs should be
based on ihe relative benefhs received.

Condition and context: The State of Arizona did not comply with the allowable COSiS/cost prindples
requirements wilh respecr to the general agency counsel service costs provided by the Office of the
Anorney General that were charged to federal programs administered by various stare agendes. A.R.S.
§41+191.09 created the Attorney General Legal Services Cost Allocation Fund (Fund) for the purpose of
reimbursing the Attorney General 's Depanment of Law for general agency counsel services. Beginning on
July 1, 2006, all state agency funds, except those specifically exempted by the statute, were required to
reimburse the Fund for the costs of general agency counsel services. Reimbursements were obtained by
charging 0.675 percent of each applicable agency's tOlal payroll expenditures, including those paid wiih
federal monies, each pay period.

Effect: During fiscal year 2009, these charges totaled $498,752, including $158,408 for the major federal
programs listed above and $340,344 for all mher federal programs. This finding is noncompliance wiih the
allowable costs/cost principles requirements and could potentially affect all federal programs administered
by the affected state agencies that incurred payroll costs.

Cause: The noncompliance resulted from a stalutory requirement that these programs be charged for
general agency counsel service costs, and therefore, this was not caused by the federal programs'
administration .

Recommendation : The Siate should ensure that general agency counsel services are not charged to
federal programs unless treated as direct costs or allocated using an equitable allocation basis, such as
each agency's direct usage of counsel services. In addition, the Oepanment of Administration should
monitor bills being considered in the Arizona State Legislature to help ensure that unallowable COStS to
federal programs will not be incurred in ihe future if the bill is enacted into law.

This finding was similar to a prior-year finding.
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
